         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Results of Technical Network
       Vulnerability Assessment:
       EPA’s Erlanger Building
       Report No. 10-P-0211

       September 7, 2010
Report Contributors:   Rudolph M. Brevard
                       Charles Dade
                       Cheryl Reid
                       Michael Goode, Jr.
                       Vincent Campbell
                       U.S. Environmental Protection Agency 	                                              10-P-0211
                                                                                                    September 7, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review           Results of Technical Network Vulnerability
As part of the annual audit of
                                 Assessment: EPA’s Erlanger Building
the U.S. Environmental
Protection Agency’s (EPA’s)       What We Found
compliance with the Federal
Information Security             Vulnerability testing of EPA’s Erlanger Building network conducted in June 2010
Management Act, the Office       identified Internet Protocol addresses with numerous high-risk and medium-risk
of Inspector General (OIG)       vulnerabilities. The OIG met with EPA information security personnel to discuss
conducted network                the findings. If not resolved, these vulnerabilities could expose EPA’s assets to
vulnerability testing of the     unauthorized access and potentially harm the Agency’s network.
Agency’s network devices in
EPA’s Erlanger Building           What We Recommend
located in Erlanger, Kentucky.
                                 We recommend that the Director, Enterprise Desktop Solutions Division, Office
Background                       of Environmental Information, and the Director, Information Resources
                                 Management Division – Cincinnati, Office of Administration and Resources
Network vulnerability testing    Management:
was conducted to identify any
network risk vulnerabilities     •	 Provide the OIG a status update for all identified high-risk and medium-risk
and to present the results to       vulnerability findings contained in this report.
the appropriate EPA officials,
who can then promptly            •	 Create plans of action and milestones in the Agency’s Automated Security
remediate or document               Self-Evaluation and Remediation Tracking system for all vulnerabilities that
planned actions to resolve the      cannot be corrected within 30 days of this report.
vulnerability.                   •	 Perform a technical vulnerability assessment test of assigned network
                                    resources within 60 days to confirm completion of remediation activities.

                                 Due to the sensitive nature of the report’s technical findings, the attachments are
For further information,         not available to the public.
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100907-10-P-0211.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                              THE INSPECTOR GENERAL




                                               September 7, 2010

MEMORANDUM

SUBJECT:	                  Results of Technical Network Vulnerability Assessment:
                           EPA’s Erlanger Building
                           Report No. 10-P-0211


FROM:                      Arthur A. Elkins, Jr.
                           Inspector General

TO:	                       Johnny Davis, Jr.
                           Director, Enterprise Desktop Solutions Division
                           Office of Environmental Information

                           Aundair Kinney
                           Director, Information Resources Management Division – Cincinnati
                           Office of Administration and Resources Management


Attached is the final technical network vulnerability assessment report prepared by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).1 The site
assessment was conducted in conjunction with the Fiscal Year 2010 Federal Information
Security Management Act audit. Vulnerability testing of EPA’s Erlanger Building network
conducted in June 2010 identified Internet Protocol addresses with numerous high-risk and
medium-risk vulnerabilities.

We performed this audit from May through August 2010 at EPA’s Erlanger, Kentucky building.
We performed this audit in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions.




1
 A vulnerability assessment is the process of identifying, quantifying, and prioritizing (or ranking) the
vulnerabilities in a tested information system. A vulnerability assessment does not include a penetration test which
would attempt to use the identified vulnerabilities to gain further access into the tested information system.


                                                          1

                                                                                         10-P-0211 



We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology. We tested Internet Protocol addresses provided by
Agency representatives and identified as being associated with network resources controlled by
your offices. We used the risk ratings provided by the vulnerability software to determine the
level of harm a vulnerability could cause to a network resource. We accepted the results from the
software tool. The vulnerabilities identified by the software are disclosed in the attachments.
On July 8, 2010, management representatives sent a status update indicating actions taken to
correct some of the identified vulnerabilities.

The estimated cost for performing these tests and compiling this report is $4,858.

Recommendations

We recommend that the Director, Enterprise Desktop Solutions Division, Office of
Environmental Information; and the Director, Information Resources Management Division –
Cincinnati, Office of Administration and Resources Management:

   1.	 Provide the OIG a status update for all identified high-risk and medium-risk vulnerability
       findings contained in this report.

   2.	 Create plans of action and milestones in the Agency’s Automated Security Self-

       Evaluation and Remediation Tracking system for all vulnerabilities that cannot be 

       corrected within 30 days of this report. 


   3.	 Perform a technical vulnerability assessment test of assigned network resources within
       60 days to confirm completion of remediation activities.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 30 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the full report will not be made
available to the public. However, the OIG plans to publish the unrestricted version of this report,
your response, and any corrective action plans on OIG’s Website, which is available to the
public. Therefore, we request that you provide your response to Recommendation 1 in a separate
document.

If you or your staff have any questions regarding this report, please contact Rudy Brevard at
(202) 566-0893 or brevard.rudy@epa.gov.




                                                2

                                                                                                                                            10-P-0211



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official              Date      Amount      Amount

     1        2     Provide the OIG a status update for all identified       U       Director, Enterprise Desktop
                    high-risk and medium-risk vulnerability findings                 Solutions Division, Office of
                    contained in this report.                                         Environmental Information
                                                                                                 and
                                                                                         Director, Information
                                                                                      Resources Management
                                                                                     Division – Cincinnati, Office
                                                                                        of Administration and
                                                                                      Resources Management

     2        2     Create plans of action and milestones in the             U       Director, Enterprise Desktop
                    Agency’s Automated Security Self-Evaluation and                  Solutions Division, Office of
                    Remediation Tracking system for all vulnerabilities               Environmental Information
                    that cannot be corrected within 30 days of this                              and
                    report.
                                                                                         Director, Information
                                                                                      Resources Management
                                                                                     Division – Cincinnati, Office
                                                                                        of Administration and
                                                                                      Resources Management

     3        2     Perform a technical vulnerability assessment test of     U       Director, Enterprise Desktop
                    assigned network resources within 60 days to                     Solutions Division, Office of
                    confirm completion of remediation activities.                     Environmental Information
                                                                                                 and
                                                                                         Director, Information
                                                                                      Resources Management
                                                                                     Division – Cincinnati, Office
                                                                                        of Administration and
                                                                                      Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 3

                                                                                      10-P-0211


                                                                                  Appendix A

                                       Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Director, Enterprise Desktop Solutions Division, Office of Environmental Information
Director, Information Resources Management Division – Cincinnati, Office of Administration and
   Resources Management
Acting Senior Agency Information Security Officer
Acting Director, Technology and Information Security Staff
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Environmental Information
Audit Follow-up Coordinator, Office of Administration and Resources Management
Inspector General




                                                4

